HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare Reimbursement by
Blue Cross Blue Shield of Arizona for Fiscal Years 1991 Through 2005," (A-07-06-00216)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield
of Arizona for Fiscal Years 1991 Through 2005," (A-07-06-00216)
August 31, 2006
Complete Text of Report is available in PDF format (330 kb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the allowability of pension costs claimed by
Arizona for Medicare reimbursement for fiscal years (FY) 1991 through 2005.  We found
that Arizona claimed $142,343 of unallowable Medicare pension costs for FYs 1991 through
2005 due to the differences in the calculated allocable pension costs.  Arizona claimed
$1,737,918 of pension costs for Medicare reimbursement; however we calculated the allowable
Medicare pension costs during this period to be $1,595,575.  We recommended that Arizona
revise its Final Administrative Cost Proposals for FYs 1991 through 2005 to reduce its claimed
pension costs by $142,343.  Arizona agreed with our recommendation.